      Office of Inspector General
      Audit Report




            WATER


Biosolids Management and Enforcement
               2000-P-10
             March 20, 2000
Inspector General Division   Headquarters Audit Division
 Conducting the Audit        Washington, D.C.
Regions covered              All
Program Offices Involved     Office of Water
                             Office of Enforcement and Compliance Assurance
                 UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                Washington, D.C. 20460




                                                                             OFFICE OF
                                                                      THE INSPECTOR GENERAL




MEMORANDUM

SUBJECT:     Biosolids Management and Enforcement
             Audit Report No. 2000-P-10

FROM:        Michael Simmons
             Deputy Assistant Inspector General
                for Internal Audits (2421)

TO:          J. Charles Fox
             Assistant Administrator for Water (4101)

             Steven A. Herman
             Assistant Administrator
               for Enforcement and Compliance Assurance (2201A)

   Our final audit report on Biosolids Management and Enforcement is attached. The
objectives of our review were to determine whether (1) EPA oversight of biosolids land
application can be more effective, and (2) the Government Performance and Results
Act goal for biosolids is appropriate and readily reportable. Our report contains
recommendations related to both objectives.

    This audit report describes findings and corrective actions the Office of the
Inspector General (OIG) recommends to improve biosolids management and
enforcement. It represents the opinion of the OIG. Final determinations on matters in
this audit report will be made by EPA managers in accordance with established EPA
audit resolution procedures. Accordingly, the findings described in this audit report are
not binding upon EPA in any enforcement proceeding brought by EPA or the
Department of Justice.

ACTION REQUIRED

   In accordance with EPA Order 2750, the Assistant Administrator for Water, as the
primary Action Official, is required to provide a written response to the audit report
within 90 days of the final audit report date. The response to the final report should
identify any completed or planned actions related to the report’s recommendations. For
corrective actions planned but not completed by the response date, reference to
specific milestone dates will assist in deciding whether to close this report.

    We have no objection to the further release of this report to the public. Should you
or your staff have any questions, please contact John T. Walsh, Divisional Inspector
General, Headquarters Audit Division, on (202) 260-5113.

Attachment




                                            2
               EXECUTIVE SUMMARY
INTRODUCTION        Domestic sewage sludge is the solid, semi-solid, or
                    liquid by-product generated during the treatment of
                    wastewater at municipal wastewater treatment plants.
                    These sewage treatment plants are referred to as
                    “publicly owned treatment works,” or POTWs.
                    Domestic septage is the liquid or solid material
                    removed from a septic tank, cesspool, portable toilet,
                    type III marine sanitation device, or similar treatment
                    works that receives only domestic septage. Sewage
                    sludge includes domestic septage. The term
                    “biosolids” refers to sewage sludge that has been
                    treated and can be beneficially recycled. EPA
                    encourages land application of biosolids rather than
                    landfilling or incineration, and if applied properly,
                    biosolids help condition soil and provide a beneficial
                    use of waste. Land application means spraying or
                    spreading the material on the surface of the land,
                    injecting it below the surface, or incorporating it into
                    the soil. Section 405(d) of the Clean Water Act
                    required EPA to establish regulations for the use and
                    disposal of sewage sludge. EPA issued the final rule,
                    40 CFR Part 503, Standards For The Use Or
                    Disposal of Sewage Sludge, on February 19, 1993.
                    The biosolids program is delegated to Texas,
                    Oklahoma and Utah. In all other states, EPA is
                    responsible for biosolids oversight.

OBJECTIVES          We conducted this review in response to an Office of
                    Water (OW) request for an audit. The objectives of
                    our audit were to determine whether (1) EPA
                    oversight of biosolids land application can be more
                    effective, and (2) the Government Performance and
                    Results Act goal for biosolids is appropriate and
                    readily reportable. In this audit we did not review the
                    science and risk assessments related to Part 503.




                                                          Report No. 2000-P-10
RESULTS IN BRIEF   EPA does not have an effective program for ensuring
                   compliance with the land application requirements of
                   Part 503. Accordingly, while EPA promotes land
                   application, EPA cannot assure the public that current
                   land application practices are protective of human
                   health and the environment.

                   Under Part 503, about 3,700 of the nation’s 16,000
                   POTWs must annually report to EPA regions:
                   information describing the concentration of pollutants,
                   the presence of pathogens (e.g., bacteria, viruses,
                   parasites), and the sludge’s attractiveness to vectors
                   (e.g., rodents, flies, mosquitoes) that could transmit
                   pathogenic organisms to humans. In FY1998, EPA
                   reviewed only about 38% of the Part 503 reports
                   submitted by POTWs. EPA performs few biosolids
                   related inspections of POTW operations, virtually no
                   inspections of land application sites, and few records
                   inspections at POTWs or land appliers. EPA regions
                   do not maintain data on the cumulative amounts of
                   pollutants at land application sites, even though Part
                   503 requires maintaining this data. There is no
                   regional oversight of septage land application. The
                   biosolids program has been delegated to only three
                   states, and there is virtually no federal oversight of
                   state biosolids programs in nondelegated states.
                   Therefore, EPA does not have sufficient information
                   to determine compliance levels with the Part 503
                   regulatory requirements. This almost complete
                   absence of a federal presence in the biosolids
                   program results from the low priority given to
                   biosolids management by EPA’s Office of Water
                   (OW), and the decision of EPA’s Office of
                   Enforcement and Compliance Assurance (OECA) not
                   to commit enforcement resources to biosolids. This
                   may result in increased risks to the environment and
                   human health, and cause a loss of public confidence
                   in the biosolids program.

                   EPA is required by the Government Performance and
                   Results Act of 1993 (GPRA) to set long-term and
                   annual goals, and to measure the results of its
                   programs in annual reports to Congress. EPA


                            ii                          Report No. 2000-P-10
                 established a FY1999 annual performance goal that
                 50% of biosolids be beneficially reused. However,
                 OW’s Clean Water Action Plan does not reflect the
                 priority to be given to biosolids land application even
                 though OW has established a GPRA land application
                 goal. EPA established this goal without defining
                 “beneficial reuse.” The goal also does not measure
                 reductions in point source pollution, the subobjective
                 under which the goal was established. Further, the
                 goal was established without identifying the
                 resources needed to achieve the goal, without clear
                 guidance to the regions on what data to gather, and
                 without describing verification and validation
                 procedures. Consequently, EPA regions are
                 measuring progress in different ways. Totaling these
                 inconsistent measurements does not provide a
                 meaningful picture of the national state of biosolids
                 use and disposal practices, and is not a useful
                 decision making tool for the biosolids program.

FINAL REPORT     Although we believe our draft report
RECOMMENDATION   recommendations best address the concerns raised
                 in this report, recognizing the realities of competing
                 priorities and limited resources, we provide revised
                 recommendations for Chapter 2 of this report. These
                 recommendations are preliminary steps which will
                 improve the biosolids program.

                 We recommend that the Assistant Administrators for
                 OW and OECA provide, by the end of fiscal 2001, an
                 analysis of whether the Agency’s proposed actions
                 provide a sufficient basis for assessing compliance
                 with Part 503 and assuring the public of the
                 protectiveness of land application practices. Our
                 suggested scope for this analysis, when completed,
                 will provide a basis for determining additional steps
                 that might be required to ensure that management of
                 biosolids is protective of human health and the
                 environment. We may conduct a follow-up review of
                 biosolids land application practices which would
                 focus on the effectiveness of the Agency’s actions
                 and the quality of its analysis.



                          iii                          Report No. 2000-P-10
                             TABLE OF CONTENTS
                                                                                                                           Page

EXECUTIVE SUMMARY ...........................................................................................                i

ABBREVIATIONS .....................................................................................................         vii

FINDINGS AND RECOMMENDATIONS

CHAPTER 1
Introduction ..........................................................................................................      1
    Objectives .........................................................................................................     1
    Background .....................................................................................................         1
    Scope and Methodology ..................................................................................                 4
    Prior Audit Coverage .......................................................................................             4

CHAPTER 2
Better Monitoring And Coordination Must Accompany
 Promotion Of Biosolids Land Application ............................................................        6
   Most Part 503 Reports Are Not Reviewed.........................................................           6
   EPA Performs Few Biosolids Inspections
       And Takes Few Enforcement Actions ........................................................ 8
   EPA Regions Do Not Maintain Needed Site Inventories .................................                    11
   EPA Regions Conduct No Oversight of Septage Land Application ..................                          12
   Delegation Of The Biosolids Program Has Not Progressed ............................                      15
   Low Risk Means Low Resources ....................................................................        16
   EPA Efforts To Improve Biosolids Management .............................................                20
   Opportunities To Improve Biosolids Management ...........................................                21
   Draft Recommendations .................................................................................  21
   Final Recommendations .................................................................................. 23

CHAPTER 3
Biosolids Goals And Performance Measures Are Not Useful
 Management Tools .............................................................................................             25
   Beneficial Reuse Is Not Defined ......................................................................                   25
   The Biosolids Goal Does Not Contribute To
       Reducing Point Source Pollution ................................................................                     26
   Resource Needs Should Be Identified .............................................................                        29
   The Midyear Progress Report For Biosolids Has Limitations ............................                                   29


                                                                iv                                       Report No. 2000-P-10
    Biosolids Data Verification Is Not Practical ......................................................           30
    Recommendations ...........................................................................................   30

APPENDIX A: Agency Response to the Draft Report ............................................                      33

APPENDIX B: Distribution .....................................................................................    48




                                                           v                                    Report No. 2000-P-10
           ABBREVIATIONS
CPLR    Cumulative Pollutant Loading Rate
CWA     Clean Water Act
BDMS.   Biosolids Data Management System
EMS     Environmental Management System
FTE     Full Time Equivalent
GAO     General Accounting Office
GPRA    Government Performance and Results Act
MOA     Memorandum Of Agreement
NBP     National Biosolids Partnership
NPDES   National Pollutant Discharge Elimination System
OECA    Office of Enforcement and Compliance Assurance
ORD     Office of Research And Development
OW      Office of Water
PCS     Permits Compliance System
POTW    Publicly Owned Treatment Works




                               vi                         Report No. 2000-P-10
[This page was intentionally left blank]




                  vii                      Report No. 2000-P-10
             CHAPTER 1
             INTRODUCTION


Objectives   We conducted this review in response to the Office of
             Water’s request for an audit. The objectives of our
             audit were to determine whether (1) EPA oversight of
             biosolids land application is effective, and (2) the
             Government Performance and Results Act goal for
             biosolids is appropriate and readily reportable.

Background   In 1977, Congress reauthorized the 1972 Federal
             Water Pollution Control Act as the Clean Water Act
             (CWA). The CWA prohibits discharging pollutants
             from a point source1 into waters of the United States,
             except in accordance with a National Pollutant
             Discharge Elimination System (NPDES) permit.
             Facilities, including wastewater treatment plants, that
             discharge directly into waters of the United States
             must comply with NPDES permits while entities, such
             as industrial facilities, that contribute to the volume of
             wastewater treated by direct dischargers, must
             comply with pretreatment standards. The process
             that a wastewater facility uses to treat water so that it
             can be directly discharged results in the production of
             “residuals” or sewage sludge. CWA §405(d) required
             EPA to establish regulations for the use and disposal
             of sewage sludge. The final rule, 40 CFR Part 503,
             Standards For The Use Or Disposal Of Sewage
             Sludge, was issued on February 19, 1993.

             Domestic sewage sludge is the solid, semi-solid, or
             liquid by-product generated during the treatment of
             wastewater at municipal wastewater treatment plants.
             These sewage treatment plants are referred to as
             “publicly owned treatment works,” or POTWs.
             Domestic septage is the liquid or solid material
             removed from a septic tank, cesspool, portable toilet,

             1
              Point sources are discrete conveyances such as pipes or man-made
             ditches.

                         1                                  Report No. 2000-P-10
type III marine sanitation device, or similar treatment
works that receive only domestic septage. Sewage
sludge includes domestic septage. Sewage sludge
can either be (1) used as a fertilizer or soil
conditioner or (2) disposed of as waste in a landfill,
through incineration, or by other methods.

EPA refers to sewage sludge that has been treated
by removing water, killing pathogens (disease
causing organisms such as bacteria, viruses, and
parasites), and reducing sludge’s attractiveness to
vectors (e.g. rodents, flies, and mosquitoes) as
biosolids. EPA estimates that POTWs generate 7.5
million dry metric tons of biosolids annually, and that
54% of biosolids is land applied. EPA encourages
land application of biosolids over landfilling or
incineration, and if applied properly, biosolids help
condition soil and provide a beneficial use of waste.

Land application of biosolids means spraying or
spreading of material on the surface of the land,
injecting it below the surface, or incorporating it into
the soil. The Code of Federal Regulations (40 CFR
Part 503) establishes procedures to determine
biosolids quality and land application methods. Part
503 requirements include general requirements,
pollutant limits, management practices (e.g., length of
time before crops may be harvested for consumption
or before animals may graze in a field), operational
standards, and requirements for the frequency of
monitoring, recordkeeping, and reporting.

The stringency of the regulatory requirements
associated with land application depends upon the
quality of the biosolids. EPA refers to biosolids that
meet the most stringent pollutant/pathogen/vector
limits as exceptional quality (EQ) biosolids. Part 503
places no restrictions on land application of EQ
biosolids. Biosolids that fail to meet any of the most
stringent parameters are Non-EQ biosolids.




         2                            Report No. 2000-P-10
Most of the requirements governing land application
under Part 503 affect preparers and appliers of bulk,2
non-EQ biosolids. All POTWs must keep records for
five years describing pollutant concentrations, how
pathogen reduction requirements were met, and
whether and how the biosolids’s attractiveness to
vectors was reduced. By February 19th of each year,
approximately 3,700 POTWs must report this
information to the permitting authority. Land appliers
must keep records for five years describing site
management practices, site restrictions, and if the
preparer has not performed certain vector attraction
reduction steps, the applier must perform and record
them.

Although most states have established some type of
biosolids management program, only Oklahoma,
Texas, and Utah have received full or partial program
delegation. Therefore, except in these three states,
EPA remains the permitting authority responsible for
the implementation of Part 503.

The Office of Water (OW), the Office of Enforcement
and Compliance Assurance (OECA), and Office of
Research and Development (ORD) hold the major
responsibilities for the biosolids program. OW, as
National Program Manager, is responsible for (1)
development and periodic review of regulations, (2)
issuance of permits, and (3) delegation of the
program to states. OECA is responsible for reviewing
annual report submissions, entering relevant data
into the Permits Compliance System (PCS)3,
inspecting facilities and land application sites,
providing compliance assistance and undertaking
enforcement actions. ORD is revising pathogen


2
 The term “bulk sewage sludge” refers to sewage sludge (biosolids)
applied in quantities greater than one metric ton, generally by
commercial and municipal appliers to agricultural land, tree and turf
farms, golf courses, parks, and reclamation sites.
3
 PCS is a national computerized information management system for
NPDES data that tracks permit issuance, permit limits, monitoring
data, and other data pertaining to facilities regulated under NPDES.

            3                                   Report No. 2000-P-10
                        reduction and vector attraction reduction guidance;
                        researching biosolids issues; providing technical
                        support to EPA, states and industry; and through its
                        Pathogen Equivalency Committee, determining if
                        proposed pathogen reduction practices are
                        equivalent to those included in Part 503.

Scope and Methodology   OW’s letter suggesting a review of EPA’s oversight
                        and management of the biosolids program highlighted
                        the land application of biosolids and also referenced
                        a June 1997 Cable News Network (CNN)
                        investigative series which described the negative
                        aspects of biosolids use. Therefore, our review of the
                        biosolids program focused on implementation of Part
                        503 for land application and did not address any
                        other disposal option. We did not review the science
                        and risk assessments related to Part 503.

                        Our review was conducted from September 1998,
                        through July 1999. We interviewed OW and OECA
                        Headquarters representatives, collected biosolids
                        information from all regions, and visited Regions 3, 4,
                        5, 6 and 8. We visited several major POTWs and
                        contacted several state coordinators of biosolids
                        programs. We attended the 19th Annual Pumper &
                        Cleaner Environmental Expo, a septage industry
                        conference and trade show, and the 1999 National
                        Biosolids Conference, a conference for state and
                        federal biosolids program officials.

                        Our audit work was performed in accordance with the
                        Government Auditing Standards (1994 Revision)
                        issued by the Comptroller General of the United
                        States. We reviewed Federal Managers’ Financial
                        Integrity Act controls related to the audit objectives.

Prior Audit Coverage    There are no prior OIG audits focusing on biosolids
                        management. A 1990 General Accounting Office
                        (GAO) report4 identified potential problems for the
                        implementation of a national biosolids program,

                        4
                         Water Pollution: Serious Problems Confront Emerging Municipal
                        Sludge Management Program, GAO/RCED-90-57, March 5, 1990.

                                   4                                 Report No. 2000-P-10
including the possibility of continued low state
participation in the program, the probability of
inadequate resources and the need for development
of an effective enforcement program. GAO
concluded that key prerequisites for meeting EPA’s
interim program goals which faced fundamental
problems were “(1) strong participation in this
voluntary program by states, (2) oversight by EPA
regions of participating states and direct involvement
where states do not participate, and (3) oversight of
both regional and state activity by EPA
headquarters”. GAO also recommended the
establishment of a strong enforcement program.
These issues are still relevant. Therefore, Chapters
2 and 3 of this report discuss how implementation of
GAO’s recommendations could still help strengthen
the current biosolids program.




         5                           Report No. 2000-P-10
                        CHAPTER 2
        Better Monitoring And Coordination Must Accompany
              Promotion Of Biosolids Land Application

                         EPA has not taken necessary steps to reasonably
                         ensure compliance with Part 503 requirements. EPA
                         reviewed fewer than 40% of the approximately 3,700
                         Part 503 reports submitted by POTWs in FY 1998.
                         EPA performs almost no sludge related inspections of
                         POTW operations and virtually no inspections of land
                         application sites. EPA regions do not maintain site
                         records needed to ensure that appliers do not exceed
                         cumulative pollutant limits. There is no regional
                         oversight of septage land application. The biosolids
                         program has been delegated to only three states, and
                         there is virtually no federal oversight of state
                         biosolids management programs in nondelegated
                         states. Therefore, EPA does not have sufficient
                         information to determine compliance levels with the
                         Part 503 regulatory requirements. This almost
                         complete absence of a federal presence in the
                         biosolids program results from the low priority given
                         to biosolids management by EPA’s Office of Water
                         (OW), and the decision of EPA’s Office of
                         Enforcement and Compliance Assurance (OECA) not
                         to commit enforcement resources to biosolids. This
                         may result in increased noncompliance with Part 503
                         requirements, which would increase risks to the
                         environment and human health, and cause a loss of
                         public confidence in the biosolids program.

Most Part 503 Reports    Part 503 requires submission of an annual report
                         from
Are Not Reviewed         appropriate POTWs but does not specify a standard
                         report format. There is wide variation in both the
                         reporting formats and the amount of information
                         submitted. Since a number of states have developed
                         standardized reporting formats for their biosolids
                         management programs, POTWs in those states often
                         duplicate the state form for federal reporting. Some

                                  6                          Report No. 2000-P-10
EPA regions require the use of Discharge Monitoring
Report forms for Part 503 reporting.5 Some POTWs,
in addition to submitting specific information on
pollutant levels and pathogen and vector reduction,
send in copies of laboratory analyses of sludge
samples. This can result in far more data submitted
to EPA regions than Part 503 requires.

Report reviews can provide initial indications of non-
compliance with certain Part 503 requirements,
including metals concentrations and pathogen and
vector attraction reduction requirements. Reviews
may be followed by more information gathering,
compliance assistance, or, in some cases,
enforcement actions. Therefore, we contacted sludge
coordinators in each region to learn about the Part
503 report review process. The extent of reviews
varied by Region from tracking submission dates to
reviewing calculations. For FY 1998, we asked how
many annual reports EPA reviewed, and for estimates
of how long report reviews took. Table 1 (see page
8) summarizes the responses, which ranged from no
reports reviewed to all reports reviewed.

Information provided in an annual report may be
entered into a data system for review, analysis, and
tracking. Region 8 took the lead in developing a
Biosolids Data Management System (BDMS). The
system software stores general information on each
facility, biosolids treatment provided, use/disposal
methods, land application site information, cumulative
load tracking, biosolids monitoring data, and
information on pathogen and vector attraction
reduction. Data needed to measure compliance with
Part 503 can be entered by POTWs, states, or EPA
regional staff. Presently, anyone can obtain the
BDMS software via the Internet.6 OW plans to allow
the public to access the entire national database via


5
 A Discharge Monitoring Report is the EPA national form for
reporting self-monitoring results by permittees.
6
 The BDMS Internet Main Page is http://www.biosolidsinfo.com/.

           7                                 Report No. 2000-P-10
                                  the Internet, a step that OW hopes will promote
                                  increased public confidence in the biosolids program.
                                  If EPA is successful in getting POTWs and states to
                                  input information, EPA regional staff will be able to
                                  review the data more quickly.

                      Table 1: FY 1998 EPA Review Of Part 503 Annual Reports
                        No. of     No. of Reports                 Estimated Time Required
            Region      Reports   Reviewed by EPA                  to Review Each Report
               1         200            10 to 15           30 minutes to 1 hour
               2         331              240              15 minutes to “days”
               3         485               0               None
               4         700               75              2 to 3 hours
               5         700               42              A few minutes to a couple hours.
               6         418              418              30-45 minutes
               7         210              2107             5 minutes to over an hour
               8         130              130              30-40 minutes for data entry, then 1-
                                                           2 hours for follow-up if necessary
               9         320              280              5–15 minutes, plus follow up effort
              10         166               08              Not applicable
             Totals     3,660         1,405 - 1,410

EPA Performs Few                  Table 2 shows the universe of 16,024 POTWs by
Biosolids Inspections             region, enforcement FTEs, inspections, and
And Takes Few                     enforcement actions reported to us by regional
Enforcement Actions               biosolids coordinators; the table does not show the
                                  number of land application sites or land appliers.
                                  EPA regional offices conduct few biosolids
                                  inspections and take few enforcement actions. The



                                  7
                                   Region 7 indicated that all reports will be reviewed, two-thirds have
                                  been reviewed to date.
                                  8
                                   Region 10 indicated that Part 503 reports are reviewed by the states.

                                                8                                  Report No. 2000-P-10
                         Table 2:
  FY 1998 Biosolids Inspections and Enforcement Actions
                              Enforcement                     Enforcement
                      9
Region       POTWs               FTEs       Inspections        Actions10
  1             550               0.1              0                 0
  2             704               1.1            14                 19
  3           1,368               0.5             2                  1
  4           2,395               2.0             24                34
  5           3,298               1.5             42                 9
  6           2,538              0.75             211                4
  7           2,403               0.5              7                13
  8           1,264               0                0                 0
  9             823               0.5            6812                3
 10             681               0.1              1                 0
Totals        16,024             7.05            167                83

         primary reason for this is lack of resources. There
         are only 18.25 FTE assigned to the biosolids program
         in the regions. Regional data provided to us indicate
         that only 7.05 FTE are allocated for inspections and
         enforcement, with the remainder assigned to permits,
         technical assistance, and other duties.

         9
          All data on FTEs, inspections and enforcements were provided to us
         by regional staff. The estimate of 16,024 POTWs was provided by
         OW Headquarters, based on the 1996 Clean Water Needs Survey.
         10
             Enforcements include formal and informal actions.
         11
           Region 6 reported that there were 95 FY1998 NPDES inspections
         including some aspect of biosolids management, but there were only 2
         biosolids-specific inspections.
         12
           Region 9's total of 68 inspections includes 50 inspections of biosolids
         preparers and 18 land application or surface disposal sites. Region 9
         also reported that it issued 50 “compliance assurance actions – notices
         of failure to provide adequate monitoring or reporting.”

                          9                                Report No. 2000-P-10
Since appliers have no reporting requirements, no
information would be provided to EPA without a
specific request or an on-site inspection. Only
through actual inspections of land application sites
would EPA gain information about compliance with
Part 503 management requirements, such as use of
buffer zones, avoidance of wetlands, recognition of
harvesting restrictions and grazing restrictions.

Table 2 shows biosolids inspections and enforcement
actions. The table shows that Region 4, with the
highest number of enforcement FTEs (2), had the
highest number of enforcement actions (34), while the
regions with 0.1 or fewer enforcement FTE reported 0
enforcement actions. The table also shows that there
is no correlation between the number of POTWs and
the number of FTEs.

GAO expressed concern in 1990 about the lack of a
strong biosolids enforcement program:

      ... [A] fundamental element of the sludge
      program will be strong enforcement by EPA
      regions and delegated states. Effective
      enforcement serves as a deterrent to violations
      and, when violations do occur, helps to ensure
      that appropriate corrective action is taken in a
      timely manner. Without effective enforcement,
      the consequences of violating permit limits and
      other program requirements are greatly
      diminished – making it much less likely that
      these requirements will be observed.... Among
      the essential elements of an enforcement
      program are (1) criteria that allow regulators to
      set enforcement priorities, (2) criteria that
      identify what type of enforcement actions are
      appropriate and when they should be taken,




         10                          Report No. 2000-P-10
                             and (3) effective oversight over EPA regional
                             and state enforcement by headquarters.13

EPA Regions Do Not   Part 503 Cumulative Pollutant Loading Rates
Maintain Needed      (CPLRs) establish the maximum amount of an
Site Inventories     inorganic pollutant contained in biosolids that can be
                     land applied. For example, the pollution
                     concentration limit for Arsenic is 41 kilograms per
                     hectare. Before biosolids subject to CPLRs are
                     applied to land, the applier must contact the
                     permitting authority for the state in which the
                     biosolids will be applied,14 to determine the
                     cumulative amount of each pollutant applied to the
                     site since July 20, 1993. CPLR biosolids may be
                     applied to a site if no CPLR biosolids have been
                     applied previously, or if CPLR biosolids have been
                     applied and the cumulative amount of pollutants
                     applied to the site is known to total less than the
                     prescribed limits. If CPLR biosolids have been
                     applied, but the cumulative amount of each pollutant
                     is not known, then additional CPLR biosolids cannot
                     be applied to the site.

                     Land appliers must indefinitely maintain records
                     documenting compliance with CPLRs. These records
                     must be readily accessible to state and EPA
                     inspectors. Prior to the initial application of CPLR
                     biosolids, the applier must provide written notice to
                     the permitting authority. The permitting authority is
                     required to maintain and provide access to the notice.

                     EPA regional offices do not maintain the records
                     needed to inform potential land appliers of the
                     cumulative amount of each pollutant applied to sites.
                     Instead, regional personnel told us that they rely on
                     the states to maintain such records. But there are no

                     13
                      Serious Problems Confront Emerging Municipal Sludge
                     Management Program, GAO/RCED-90-57, B-236805, March 5, 1990,
                     page 28-29.
                     14
                      Except for Texas, Oklahoma and Utah, which have approved sludge
                     management programs, the “permitting authority” is the EPA
                     Regional Administrator.

                               11                                Report No. 2000-P-10
                          formal agreements between regions and states
                          pertaining to the maintenance or sharing of CPLR
                          information. If EPA regions do not maintain needed
                          site records, or ensure that states do so, land
                          appliers may be deprived of legitimate land
                          application sites.

EPA Regions Conduct       Part 503 defines domestic sewage to include
No Oversight of Septage   domestic septage, and therefore treated domestic
Land Application          septage is also considered to be biosolids. However,
                          because the septage pumping industry is significantly
                          different from POTWs and the Part 503 requirements
                          differ for septage pumpers versus POTWs, septage
                          oversight and enforcement issues are discussed
                          separately from issues relating to biosolids generated
                          by POTWs.

                          EPA estimates that 68 million Americans are served
                          by on-site septic and other treatment facilities; that
                          these facilities generate 12.4 billion gallons (1.6
                          million dry metric tons) of septage annually; that 67%
                          of the septage pumped from septic tanks goes to
                          POTWs for treatment and that 33% is land applied as
                          septage or further treated by private haulers.

                          When domestic septage is applied to nonpublic
                          contact sites (agricultural land, forest, or reclamation
                          sites), the Part 503 treatment requirements for land
                          application of septage are comparatively simpler than
                          those for sewage sludge; the material is not tested for
                          metals, and if incorporated during application, no
                          additional treatment, such as liming, is necessary for
                          compliance with Part 503. However, when domestic
                          septage is handled other than by land application to
                          nonpublic contact sites, the same requirements apply
                          to both septage and sewage sludge. Under Part 503
                          there are no reporting requirements for septage land
                          application.

                          Four billion gallons of septage are land applied each
                          year. However, EPA regional offices conduct no
                          oversight of septage land application. EPA does not
                          regularly collect information on the amount of septage

                                   12                           Report No. 2000-P-10
generated or its method of disposal. EPA conducts
virtually no inspections of septage haulers’ records or
land application practices.

In February 1999, 9,290 septage and sludge
pumpers, tank cleaners and haulers representing
3,466 companies gathered in Nashville, Tennessee
for the 19th Annual Pumper & Cleaner Environmental
Expo. This event provides technical information to a
significant number of the industry in one location. A
pumper and owner of a septage treatment facility
presented an educational session on how to comply
with EPA’s regulations governing land application of
septage to an audience of over 500.

After the presentation, over 60 of the attendees
accepted the speaker’s invitation to meet for a
discussion of the industry’s difficulties in complying
with EPA’s requirements. Two OIG audit staff were
present at the meeting. Participants described how
local land application bans, or the unwillingness of
POTWs to accept septage, caused some haulers to
drive significant distances to dispose of their waste.
These types of restrictions result in higher
transportation costs, which are often passed on to the
septic tank owner. Pumpers who want to comply with
local, state and federal regulations governing land
application bear financial burdens, including costs of
lime stabilization; equipment cost for spreading or
injecting septage; licensing fees; and in some
locations, certification fees. Pumpers who comply
with all requirements must factor in these costs when
they set their fees.

Septage disposers who do not comply with Part 503
need not spend the same amount of money as their
competitors who do comply. If a hauler uses low
quality or no lime, incorporates septage into the land
monthly rather than after each application, mixes
septage with industrial waste and still disposes of it
as septage, or even illegally dumps septage down a
manhole or in a remote area, profit margins can
increase dramatically. In this industry, as in other


         13                           Report No. 2000-P-10
industries, individuals complying with the regulations
are at an economic disadvantage with those who do
not comply and receive no enforcement penalties.
The attendees who discussed these matters with us
stated consistently that it was important to the health
of their businesses for EPA to maintain an
enforcement presence.

There are approximately 30,000 companies in the
septage industry. Expo attendees told us that they
have repeatedly asked for enforcement of Part 503
requirements. The editor of the industry publication
(circulation 22,000) called the OIG to ask for
information on enforcement cases specific to the
industry. The editor wanted to publicize these cases
as a deterrent to those in the industry not following
Part 503 requirements. We asked several regional
enforcement officials if they knew of any completed
cases. The standard response was that states would
be better able to provide this information.

At the Environmental Exposition we were given
copies of a newspaper article, which reported
exposure and prosecution (by a state) of a septage
pumper who illegally dumped millions of gallons of
waste. We arranged to have the OIG hotline number
published in the industry newspaper. Procedures
were established for taking these calls and for
referring them. We first discussed referring them to
OECA’s Criminal Enforcement Division. However,
the Director stated that these type of cases were not
of federal interest. We then worked with regional
enforcement personnel to address these complaints.

Many of the callers to the hotline were from within the
industry. One complainant claimed to have a video of
illegal dumping. Another offered to escort state
officials to the illegal dump site. Several callers
expressed frustration about their inability to get local,
state, or federal officials to take any action. One
region wrote the following to us:




         14                            Report No. 2000-P-10
                           It should be noted that while we are actively
                           investigating this particular hotline request, the
                           level of effort generally required to conduct
                           such a follow-up is beyond the capability of the
                           resources currently available. A more typical
                           response to an issue of this nature would be
                           our referral of the matter to local authorities
                           and a follow-up call to those authorities within
                           a month to six weeks to learn the outcome of
                           any type of local action. Efforts to deal with
                           non-compliant septage haulers need to be
                           localized and immediate. In [several states in
                           this region], our state environmental agency
                           counterpart is not the state entity that has
                           responsibility for regulating either the haulers
                           or the local governmental units which may
                           actually license the haulers.... We are working
                           with our Office of Regional Counsel to develop
                           some innovative uses of the legal authorities
                           and tools currently available to us under the
                           Clean Water Act regarding collecting penalties
                           from non-responsive haulers and/or possibly
                           enforcing against the county or state health
                           departments that license septage haulers who
                           may subsequently not be operating in
                           compliance with Part 503.

                     Given that the septage industry includes many small,
                     mobile haulers, we recognize that it may not be
                     practical for EPA to maintain a “hands on”
                     enforcement presence in each state. Working with
                     the septage industry and the states by publicizing
                     violations would provide a deterrent effect with a
                     minor resource investment.

Delegation Of The    States can (and many have) establish biosolids
Biosolids Program    oversight programs without EPA delegation, but
Has Not Progressed   without delegation there is no requirement for states
                     to share information with the EPA. Presently, only
                     Texas, Utah and Oklahoma have EPA approved
                     biosolids management programs. There are currently
                     nine applications pending. One reason for the slow
                     pace of delegation is EPA’s objection to state self-

                             15                            Report No. 2000-P-10
                 audit laws, under which, in response to voluntarily
                 disclosures of violations, states respond with
                 compliance assistance rather than enforcement.
                 Some states indicate that lack of additional funding
                 for accepting delegation of the program is an obstacle
                 to delegation.

Low Risk Means   The almost complete absence of a federal presence
Low Resources    in biosolids oversight and enforcement can be
                 attributed to OW’s assessment, and OECA’s
                 acceptance, of the relatively low risk to human health
                 and the environment from biosolids. The inadequacy
                 of resources and its effects were pointed out by GAO
                 10 years ago. In March 1990, GAO’s report on EPA’s
                 interim implementation strategy15 identified two
                 problems that if not addressed could contribute to
                 delays and inefficiencies in EPA’s “Municipal Sludge
                 Management Program.” GAO stated that:

                         Among the potential obstacles ... are (1)
                         continued questions over the sufficiency of
                         resources to fully implement the program, (2)
                         the need to develop an effective enforcement
                         program to deter program violations and to
                         bring about compliance when violations do
                         occur....16

                 GAO elaborated on the lack of program resources by
                 examining the effect of insufficient resources on state
                 programs:

                         ... [We] observed that insufficient resources
                         were a contributing factor toward low state
                         participation in the interim sludge program and


                 15
                   In 1989, EPA expected that final regulations governing pollutant
                 concentration limits in sludge and acceptable management practices
                 would not be issued until 1991. Under the “interim implementation
                 strategy” EPA began immediately incorporating sludge conditions into
                 NPDES permits.
                 16
                  Serious Problems Confront Emerging Municipal Sludge
                 Management Program, GAO/RCED-90-57, B-236805, March 5, 1990,
                 page 25.

                            16                                 Report No. 2000-P-10
          toward incomplete implementation of program
          requirements by EPA regions. Likewise, a
          major factor affecting the success of the
          permanent sludge program will be the extent to
          which states participate – and the sufficiency
          of EPA’s resources if they do not... [B]ased on
          past experiences of other environmental
          programs, as well as the types of problems
          affecting the interim sludge program... there is
          cause for concern as to whether EPA will have
          sufficient resources to fully implement a
          national sludge program.17

Seven years later, little had changed. Speaking to
the July 8 – 10, 1997, 3rd Annual OECA National
Conference, the then OW Assistant Administrator
said:

          I have this other problem of ensuring that
          [biosolids are] actually meeting [Part 503]
          standards, and if not, we will do something
          about it.... And yet, when I do risk
          assessments, or any kind of work at an
          Agency-level on what our priorities are, there
          will always be a low risk because we have
          studied biosolids for the last 25 years. So, it
          always gets cut in the budget.... [If] we think
          that the environmentally preferable thing is to
          not burn [biosolids] or put them in landfills, but
          to beneficially recycle them into the
          environment, we’ll have to think of this other
          concept of being able to provide the
          assurances that [it] is safe.... We’re diligent in
          deterring those that don’t do the right thing in a
          National sense.... Why isn’t this an important
          part of the enforcement, deterrence, and
          compliance assurance aspect of our job? I
          think it is.

The former OW Assistant Administrator indicated that
EPA’s lack of information caused a loss of public


17
  Ibid.

            17                            Report No. 2000-P-10
confidence in the biosolids program. He requested
that OECA provide an increased biosolids presence.
His April 29, 1998, memorandum to OECA stated:

      The low risk associated with using biosolids
      previously caused us to divest many of the
      resources assigned to biosolids oversight and
      management in OW, OECA, and the regions.
      While some resource reduction is prudent for
      lower risk situations, at least some among the
      public perceive that risks from biosolids use
      and disposal are high, that biosolids qualities
      are poor, that inspections and enforcement are
      small to nonexistent, and that EPA has limited
      knowledge about what is going on.... Even
      though risks associated with biosolids
      recycling are low, the lack of adequate
      information to provide better understanding
      among the public is causing high-level concern
      and rejection of beneficial reuse. Such
      rejection can impair the ability of wastewater
      treatment facilities to adequately treat
      wastewater causing noncompliance not only
      with respect to biosolids management but also
      with respect to water quality.

The current OW Assistant Administrator echoed his
predecessor’s call for a stronger biosolids
enforcement presence. On December 9, 1998, the
current OW Assistant Administrator indicated to
OECA that he considers biosolids to be OW’s number
three priority, in part because:

      Key to the success of beneficial reuse of
      biosolids is ensuring that the biosolids
      program has credibility with the public.... In
      addition to the public concern, there are
      several indications that neither the Agency nor
      the States is making a sufficient effort to
      assure that wastewater treatment facilities are
      complying with the regulations. To insure that
      the benefits of beneficial reuse of biosolids are
      maximized, overseeing the quality of the


        18                           Report No. 2000-P-10
        biosolids being land applied and assuring that
        the regulations governing land application are
        properly enforced needs to be a priority.18

OECA Headquarters commits few resources to
biosolids enforcement, a decision referred to as
“disinvestment.” OECA explains that there are more
regulated communities than can be adequately
overseen with its available resources. Rather than
spread its limited resources so broadly that only
token efforts can be made in several areas, OECA
decided to concentrate its efforts in a few areas other
than biosolids, where it feels it can make a large
impact. OECA considers biosolids to be relatively
low risk, and notes that biosolids are not mentioned in
OW’s Clean Water Action Plan19 and are not a
Memoranda of Agreement (MOA) priority.20

EPA promotes biosolids as beneficial material when
used properly (in accordance with Part 503), while
having no ability to ensure/enforce proper biosolids
use. If biosolids are not used properly, certain risks
increase. Contaminated or improperly handled
biosolids can result in pollutants re-entering the
environment. There can be adverse effects on
surface and ground water, wetlands, and on human
health. Contaminants can leach into existing or
potential potable water sources. Biosolids containing
high levels of pathogenic organisms can contaminate
soil, water, crops, livestock, fish and shellfish.

A loss of public confidence in the biosolids program
can lead to restrictive local ordinances and bans on


18
 Memorandum from the OW Assistant Administrator, to the
Principal Deputy Assistant Administrator, OECA, December 9, 1998,
Subject: OW’s Review of FY2000/2001OECA MOA Draft Priorities.
19
  The Clean Water Action Plan describes EPA’s approach to
providing “fishable and swimmable” waters to all Americans.
20
  MOAs, negotiated between OECA and each EPA region, outline
enforcement and compliance assurance activities, priorities and
programs that will be implemented to achieve program goals.

           19                                 Report No. 2000-P-10
                         land application. In December 1998, a trade journal
                         reported that in over half the states, more than 50
                         percent of biosolids are beneficially used, with the
                         practice increasing in 30 states. At the same time, 18
                         states reported that local restrictions or outright bans
                         have been adopted. The effects of such restrictions
                         include increased hauling distances or a need to find
                         land application sites in other jurisdictions.

EPA Efforts To Improve   EPA has undertaken initiatives aimed at improving
Biosolids Management     biosolids management. In 1997, EPA, the
                         Association of Metropolitan Sewerage Agencies, and
                         the Water Environment Federation formed the
                         National Biosolids Partnership (NBP) to promote
                         sound biosolids management practices. NBP, funded
                         by a $900,000 congressional earmark in EPA’s FY
                         1999 budget, promotes voluntary adoption by
                         POTWs of an Environmental Management System
                         (EMS). EMS includes a set of good management
                         practices, a program of independent third-party
                         verification, and citizen input which NBP believes will
                         result in compliance with all applicable regulations
                         and foster public acceptance of biosolids beneficial
                         use. But EMS, at an implementation cost of up to
                         $20,000 per POTW, may be too expensive for many
                         of the roughly 12,000 small POTWs, nor is it likely to
                         have any impact on the 4 billion gallons of septage
                         that is land applied. EMS, which hopefully will raise
                         compliance for large POTWs, is not a substitute for
                         an adequate enforcement program.

                         BDMS (discussed on page 7) is a new system that
                         has not yet been widely adopted. We talked to
                         regional and state personnel who indicated that while
                         they think that BDMS is a good system, they lack the
                         staff to perform data entry. OW hopes that POTWs
                         will be willing to perform data entry and electronic
                         submission of Part 503 annual reports to states and
                         EPA. Although BDMS could be modified to track
                         enforcement data, it is not used for this purpose.
                         Currently, OECA records enforcement actions in
                         PCS. EPA is upgrading PCS, with implementation
                         expected to take place in 2003. OW and OECA have


                                  20                           Report No. 2000-P-10
                           not determined whether BDMS will be absorbed into
                           PCS, or function as a separate system.

Opportunities To Improve   EPA regions can increase public confidence in the
Biosolids Management       biosolids program by maintaining a minimal federal
                           enforcement presence in exchange for sufficient state
                           information to manage the program and provide
                           effective oversight. Depending on what information
                           states collect for their own purposes, sufficient
                           information may simply mean providing the EPA
                           region with the same data states use internally to
                           assess risk and set priorities. In these cases, there
                           would be no new data collection and reporting
                           burden.

                           Where regions are unable to draw informed
                           conclusions about the level of compliance from
                           available data, regions should plan to allocate
                           sufficient resources to gain that knowledge. Absent
                           state delegation, the EPA Regional Administrator is
                           the permitting authority. If EPA cannot reach
                           conclusions from state data, EPA would need to
                           develop alternative means of ensuring that biosolids
                           generators and land appliers comply with Part 503.
                           We fully appreciate the resource constraints that all
                           parties face. Information sharing is the least resource
                           intensive step that the states and EPA can take to
                           meet their oversight responsibility and accomplish
                           land application goals.

Draft Recommendations      The Assistant Administrators for OW and OECA
                           provided written comments on the draft report, which
                           appear as Appendix A. Although we believe our draft
                           report recommendations best address the concerns
                           raised in this report, recognizing the realities of
                           competing priorities and limited resources, we offer
                           revised recommendations which are preliminary steps
                           to improve the biosolids program.


Draft Report               We recommend that the Assistant Administrator for




                                    21                          Report No. 2000-P-10
Recommendation 2-1   Water work with regions and states to develop and
                     implement measures to determine compliance with
                     Part 503.

Agency Response      OW responded that OECA would address issues
                     relating to the level of compliance. OECA indicated
                     that although no OECA resources are specifically
                     identified for biosolids enforcement, OECA would
                     review, on a case by case basis, any information
                     referred to it relating to violations of laws criminally
                     enforced by the Agency

Draft Report         We recommend that the Assistant Administrator for
Recommendation 2-2   Water instruct regions to maintain, or formally
                     encourage that states maintain, Cumulative Pollutant
                     Loading Rate data.

Agency Response      OW does not plan to implement this recommendation,
                     stating that most of the biosolids that are land applied
                     are of such quality that CPLR tracking is not
                     necessary. OW supports the development of the
                     BDMS which will enable wastewater utilities, States,
                     Regions, and others to store and monitor biosolids
                     data including site-specific CPLR information.

Draft Report         We recommend that the Assistant Administrator for
Recommendation 2-3   Water encourage delegation of the biosolids
                     program.

Agency Response      OW does not expect to devote significant resources
                     to encouraging the Regions to delegate the biosolids
                     program to the States. OW feels its efforts would be
                     better spent in improving communication between the
                     States and Regions, documenting State efforts
                     devoted to the regulation and oversight of biosolids
                     use and disposal practices, and working with State
                     and local agencies to increase the use of
                     environmental management systems.

Draft Report         We recommend that the Assistant Administrator for
Recommendation 2-4   Enforcement and Compliance Assurance implement
                     GAO’s 1990 recommendation to establish an
                     effective enforcement program. As GAO explained:

                              22                             Report No. 2000-P-10
                                   To improve the prospects for an effective
                                   permanent sludge program, we recommend
                                   that the Administrator, EPA, take measures to
                                   ensure that a strong enforcement component
                                   is in place.... Among the key elements that
                                   should be included are (1) criteria for
                                   significant noncompliance so that enforcement
                                   priorities can be determined, (2) criteria for
                                   timely and appropriate enforcement so that the
                                   type and timing of enforcement is known to
                                   both regulators and POTWs, and (3) effective
                                   oversight of EPA regional and state
                                   enforcement efforts by headquarters.

Draft Report                We recommended that the Assistant Administrator for
Recommendation 2-5          Enforcement and Compliance Assurance Work with
                            the septage industry and state and local governments
                            so that septage haulers who violate Part 503 receive
                            appropriate penalties, and publicize this information
                            for its deterrent effect.

Agency Response to Draft    OECA believes that it would be unwise to divert
Recommendations 2-4 & 2-5   scarce resources from the higher risk priorities
                            identified in the Clean Water Action Plan to carry out
                            the specific recommendations of the IG with respect
                            to biosolids. However, OECA will continue to
                            respond to limited Regional requests for assistance in
                            biosolids enforcement, and is developing detailed
                            audit protocols (i.e., a series of review steps) for the
                            NPDES program, which will cover the biosolids
                            program in detail.

Final Recommendations       We recommend that the Assistant Administrators for
                            the Offices of Water and Enforcement and
                            Compliance Assurance provide, by the end of fiscal
                            2001, an analysis of whether the Agency’s proposed
                            actions provide a sufficient basis for assessing
                            compliance with Part 503 and assuring the public of
                            the protectiveness of land application practices. That
                            evaluation should include a scope of work and the
                            basis for conclusions for each of the following actions
                            proposed by the Agency:



                                     23                           Report No. 2000-P-10
1. Continued participation in the National Biosolids
Partnership, including the development and adoption
of environmental management systems;

2. Use of the Biosolids Data Management System or
comparable system to store and monitor biosolids
data, including site-specific information on the
Cumulative Pollutant Loading Rate;

3. Improved communications between the regions
and states;

4. Maintaining documentation of state activities for
regulating and overseeing biosolids use and disposal
practices;

5. Development of audit protocols to assist regions,
states , and the regulated community in assessing
compliance with biosolids regulations.




         24                          Report No. 2000-P-10
                        CHAPTER 3
             Biosolids Goals and Performance Measures
                 Are Not Useful Management Tools

                         The Government Performance and Results Act of
                         1993 (GPRA) requires EPA to set long-term and
                         annual goals, and to measure the results of its
                         programs in annual reports to Congress.21 EPA
                         established a FY1999 annual performance goal that
                         50% of biosolids be beneficially reused. However,
                         EPA established this goal without defining “beneficial
                         reuse.” The goal also does not directly measure
                         reductions in point source pollution, the subobjective
                         under which it was established. Further, the goal was
                         established without identifying the resources needed
                         to achieve the goal, without clear guidance to the
                         regions on what data to gather, and without
                         describing verification and validation procedures.
                         Consequently, EPA regions are measuring progress
                         in different ways. Totaling these inconsistent
                         measurements does not provide a meaningful picture
                         of the national state of biosolids use and disposal
                         practices, and is not a useful decision making tool for
                         the biosolids program.

Beneficial Reuse         OW did not define “beneficial reuse” when it created
Is Not Defined           its biosolids goal. Beneficial reuse could refer to any
                         recycling of biosolids such as land application or
                         incorporation into another material (e.g., for
                         construction). EPA issued a definition of “beneficial
                         use” which predates Part 503. Under that definition:

                                 “Beneficial use” means any application of
                                 sludge to land specifically designed to take
                                 advantage of the nutrient and other
                                 characteristics of this material to improve soil



                         21
                           The first Annual Performance Report is due March 31, 2000.

                                    25                                 Report No. 2000-P-10
                                    fertility or structure and thereby further some
                                    natural resource management objective.22

                            For GPRA reporting purposes, EPA regions are
                            reporting biosolids that are land applied. Therefore,
                            although OW has not defined beneficial reuse, the
                            remainder of this discussion equates beneficial reuse
                            with land application.

The Biosolids Goal Does     GPRA requires an annual performance plan covering
Not ContributeTo Reducing   each program activity set forth in an agency’s budget.
Point Source Pollution      The plan must include performance goals; describe
                            the operational processes and resources required to
                            meet the performance goals; establish performance
                            indicators to be used in measuring or assessing the
                            relevant outputs, service levels, and outcomes of
                            each program activity; provide a basis for comparing
                            actual program results with the established
                            performance goals; and describe the means used to
                            verify and validate measured values.

                            EPA has established the following long-term GPRA
                            goals and objectives:

                            • Goal 2: Clean and Safe Water
                              • Objective 3: Reduce Loadings and Air Deposition
                                • Subobjective 3.1: By 2005, annual point source
                                 loadings from Combined Sewer Overflows,
                                 POTWs, and industrial sources will be reduced
                                  by 30% from 1992 levels.

                            To achieve subobjective 3.1, EPA established a
                            FY1999 annual performance goal that 50% of
                            biosolids are beneficially reused, and two
                            performance measures, (1) the number of POTWs
                            that are beneficially reusing all or part of their
                            biosolids and (2) where data exists, the percent of
                            biosolids generated that are beneficially reused. As
                            explained in the 1999 Annual Plan Request to the
                            Office of Management and Budget (the 1999 Plan):

                            22
                             Interagency Policy on Beneficial Use of Municipal Sewage Sludge on
                            Federal Land, 56 FR 33186, July 18, 1991.

                                       26                                Report No. 2000-P-10
        For 1999, the program has established a
        performance goal that 50% of biosolids will be
        beneficially reused. Efforts in this area will
        lead to a reduction in pollutant discharges by
        effectively managing the residuals of the
        wastewater treatment process and ensuring
        that a valuable resource is used effectively.

Sewage sludge is removed from wastewater during
treatment prior to discharge by the POTW.
Reductions in point source pollution occur when
wastewater is treated, not when biosolids are used or
disposed. Therefore, although the amount or quality
of the sludge removed from the wastewater reduces
point source pollution, the manner of final disposal of
the biosolids does not affect the quality of the water
discharged from the pipe. In fact, if biosolids land
application is not done in accordance with Part 503,
the result can be runoff of biosolids into surface
waters. In that case, point source pollution is simply
exchanged for nonpoint source pollution.23

Additionally, measuring the number of POTWs that
are beneficially reusing all or part of their biosolids is
only a surrogate measure of the percent of biosolids
beneficially reused. Neither the percentage of
biosolids beneficially reused, nor the number of
POTWs beneficially reusing biosolids, provides
indications of whether point source pollution is
decreasing. The fact that EPA has not adequately
defined the universe of biosolids to resolve issues of
whether Regions should only count biosolids reported
in annual reports or estimate biosolids production and
use in the Region, including the amount landfilled, as
well as septage, only serves to compound the
difficulty in establishing the percentage of biosolids
beneficially reused.



23
  The term nonpoint source pollution refers to pollution attributed to
runoff and whose original source cannot be determined. If misapplied
biosolids run off the land and into water, this would be an instance of
nonpoint source pollution.

           27                                    Report No. 2000-P-10
Finally, EPA has no control over the annual
performance goal it selected for the biosolids
program. Part 503 explicitly states, “[t]his part does
not require the selection of a sewage sludge use or
disposal practice. The determination of the manner
in which sewage sludge is used or disposed is a local
determination.” Factors that may affect the selection
of a use or disposal option include transportation
costs, landfill tipping fees compared to the cost of
land application, land application conditions
(including weather and soil characteristics), the
availability of land application sites and incineration
facilities, as well as state biosolids regulations,
county ordinances and bans. Therefore, changes in
biosolids program efforts will not necessarily be
reflected by any change (positive or negative) in the
percentage of biosolids land applied.

Goals for the biosolids program that would encourage
a more holistic view of wastewater management and
provide greater feedback for the functioning of the
NPDES and pretreatment programs could involve
information regarding the percentage of sludge that is
EQ for metals (prior to any re-mixing) or the quantity
of metals removed from wastewater. These
measures would more directly measure reductions in
point source pollution and more accurately
characterize possible nonpoint source pollution from
noncompliance with Part 503 management practices.
Cleaner sludge should not result in more polluted
effluent, since NPDES permit limits should continue
to ensure the quality of the effluent is maintained.

Although the 50% reuse goal does not directly
measure point source pollution reduction and EPA
does not have control over its achievement, the goal
could have value to EPA as a measure of pollution
prevention. For example, EPA’s goal of reducing the
volume of municipal solid waste being landfilled is a
pollution prevention measure. The volume of sewage
sludge recycled instead of landfilled could assist in
measuring EPA's progress toward pollution
prevention.


         28                           Report No. 2000-P-10
Resource Needs         Resources needed to accomplish the 50% beneficial
Should Be Identified   reuse goal are not described in the 1999 Plan. The
                       Plan states that the NPDES program includes
                       NPDES permits, the pre-treatment program for non-
                       domestic wastewater dischargers into municipal
                       sanitary sewers, and biosolids management controls.
                       In January 1999, an OW official explained that:

                             [O]ur decision to reinvest in biosolids was
                             relatively recent - about a year and a half....
                             [W]e decided to reinvest in biosolids after the
                             FY99 budget had gone forward, so no
                             resources were expressly included in the 99
                             budget for biosolids. We received money from
                             the [Assistant Administrator] in 1998 to get
                             underway and we built the program around
                             that money....

The Midyear Progress   OW Headquarters requires EPA regions to report the
Report For Biosolids   percentage of biosolids land applied. Midyear (April
Has Limitations        1999) regional reports ranged from 33% in Region 5
                       to 80% in Region 7. The arithmetic average of all 10
                       regions indicates that 53% of biosolids are
                       beneficially reused nationwide. But interpretation of
                       these figures must recognize that:

                       (1) the regions do not have accurate measures of
                       biosolids land application or disposal options. For
                       example, no regional estimates include septage, even
                       though the Part 503 definition of domestic sewage
                       sludge includes domestic septage; and

                       (2) given the differences among regions in the
                       number of POTWs and total biosolids generated, an
                       arithmetic average of regional percentages is not an
                       accurate picture of the national percentage of land
                       applied biosolids.

Biosolids Data         Biosolids data verification is hampered by the lack of
Verification           a central location for biosolids data. While OW’s
Is Not Practical       Biosolids Data Management System (BDMS,
                       described on page 7 of this report) can capture

                                29                          Report No. 2000-P-10
                  biosolids production, use and disposal information,
                  Chapter 2 explained that at present BDMS is not
                  widely used, but EPA is promoting the database
                  although its use is not required. According to OW,
                  BDMS could be used to track enforcement data, but
                  currently is not used for that purpose. The
                  relationship between BDMS and PCS has not been
                  clarified, and PCS modernization is expected to take
                  years. So EPA may be years away from having a
                  single automated repository for biosolids production,
                  use and disposal, and enforcement data. It is unlikely
                  that EPA will be able to store or verify data on the
                  amount of biosolids produced, and biosolids use and
                  disposal practices, for over 16,000 POTWs (or even
                  just the 3,660 reporters) without an automated
                  information system.

Recommendations   If EPA continues to measure the current goal of
                  beneficial reuse of biosolids, we recommend that the
                  Assistant Administrator for Water:

                  3-1   Define “beneficial reuse;”

                  3-2   Provide guidance to the regions concerning
                        what data should be collected and where
                        collected data should reside.

                  3-3   Establish procedures to verify collected data.

Agency Response   OW will provide additional guidance to the Regions
                  and States as to what “beneficial use” means. By
                  April 2000, OW will provide additional guidance to
                  the Regions and States as to how data is to be
                  collected, assessed, and reported to Headquarters.

OIG Evaluation    The proposed corrective actions will address
                  recommendations 3-1, 3-2 and 3-3 and no further
                  action is required.


                  We recommend that the Assistant Administrator for
                  Water:



                           30                          Report No. 2000-P-10
                  3-4   Allocate the resources necessary to determine
                        progress toward the established goal.

Agency Response   OW’s budget does not specifically identify resources
                  for biosolids. However, the Office of Science and
                  Technology continues its regulation development
                  activities, and OW will continue to support biosolids
                  with approximately two FTEs, minimal contract and
                  grant funds, and with Congressional earmark funds.

OIG Evaluation    The Agency’s response is insufficient. GPRA
                  requires that EPA specify what goals it will
                  accomplish and how the goals will be accomplished.
                  To establish a goal of 50% beneficial use, and not to
                  identify the resources needed to accomplish the goal,
                  does not reflect compliance with GPRA. As long as it
                  has a GPRA goal, OW should identify needed
                  resources.

                  If OW elects to review and redefine goals for the
                  biosolids program, we recommend that the Assistant
                  Administrator for Water:

                  3-5   Select annual performance goals and
                        indicators for the biosolids program that reflect
                        the goal of reducing point source or nonpoint
                        source pollution, such as percentage of EQ
                        sludge, adoption of best management
                        practices, or the quantity of metals removed
                        from wastewater or compliance rates with Part
                        503 management practices.

                  3-6   Identify the actions and investments needed to
                        accomplish the revised goals.

Agency Response   For at least the next year or two, OW will continue to
                  use beneficial use of biosolids as a goal and measure
                  under GPRA. OW will initiate discussions with
                  Regional offices and States to see if there is a better
                  measure for assessing the success of the biosolids
                  program. The first opportunity to do this will be the
                  next annual meeting for Regional and State biosolids
                  coordinators scheduled for June 26-29, 2000.


                           31                          Report No. 2000-P-10
OIG Evaluation   As noted under Recommendation 3-4, GPRA requires
                 that along with goals, OW should identify the
                 resources needed to achieve its goals, and the data
                 to be collected to measure progress. OW expressed
                 concern “that there is considerable advance work
                 needed to develop and implement a new performance
                 measure.” Providing a date by which OW expects to
                 complete its assessment of whether to amend its
                 biosolids performance goal will address this
                 recommendation.




                         32                         Report No. 2000-P-10
                              APPENDIX A
                    Agency Response to the Draft Report



                                  February 24, 2000




MEMORANDUM

SUBJECT:     Draft Audit Report on Biosolids Management and Enforcement
             (No. 99P-000301)

FROM:        J. Charles Fox /s/
             Assistant Administrator

TO:           Michael Simmons
              Deputy Assistant Inspector General
         for Internal Audits


      Thank you for the opportunity to comment on your draft report on biosolids
management and enforcement. We appreciate your staff’s effort to give us a careful
review of the topic. I will first present some general observations and then I will
address your specific recommendations.

GENERAL OBSERVATIONS

   •   OW was responsible for developing and issuing 40 CFR Part 503 as it exists
       today, and it has activities underway to develop necessary modifications to that
       rule. OW will continue to work with EPA Regions and States to implement
       biosolids requirements, including through National Pollutant Discharge
       Elimination System (NPDES) permits where appropriate. As you are aware, 40
       CFR Part 503 was designed to be self-implementing, meaning that those subject
       to the rule are required to comply whether or not a permit is issued.

   •   OECA’s letter, which is attached (Attachment 1), addresses the area of
       determining the level of compliance.
   •

                                          -33-                        Report No. 2000-P-10
•   A program for regulation, compliance oversight, and enforcement of biosolids
    use and disposal exists in every State. The regulations of most States are
    equivalent to, or more restrictive than, 40 CFR Part 503. Even though EPA has
    delegated the biosolids program to only three States, programs are in place in
    the non-delegated States that provide additional oversight.

•   In addition to developing required modifications to 40 CFR Part 503, OW’s
    primary activity related to biosolids has beem promoting more effective biosolids
    management and encouraging beneficial use consistent with the Agency’s Policy
    on Municipal Sludge Management issued in 1984 and with section 405(g)(1) of
    the Clean Water Act. For this reason, OW proposed an annual performance
    measure related to beneficial use of biosolids and developed the Biosolids Data
    Management System (BDMS) to help track use and disposal practices,
    especially beneficial use. The annual performance measure issue is discussed
    further below and in Attachment No. 2.

• To complement our internal activities to promote more effective biosolids
   management, the Office of Wastewater Management is also working
  closely with the Water Environment Federation (WEF) and the Association
  of Metropolitan Sewerage Agencies (AMSA) through the National Biosolids
  Partnership (NBP). The primary focus of this voluntary alliance is to develop
  a biosolids environmental management systems (EMS) program and facilitate the
  the adoption of EMSs by publicly owned treatment works for their biosolids
  activities.

• Environmental management systems were first adopted by private industry, but
  are now being used more widely by public organizations. Consistent with EPA’s
  overall policy on EMSs, my office is managing projects to encourage public
  agencies to adopt EMSs, in addition to our work with the NBP. EMSs provide
  organizations with a structured process and procedures for assessing the full
  range of environmental impacts of their operations, both regulated and
  unregulated, and for reducing those impacts over time. In addition, they can
  enable organizations to identify more efficient ways to reduce environmental
  impacts through pollution prevention. Finally, adoption of an EMS, especially by
  public entities, requires an organization to communicate with local stakeholders
  and address issues raised by these stakeholders that are not necessarily
  regulated, like odor and noise.

•   Adoption of EMSs will support EPA’s biosolids program goals by:

    1) helping organizations implement biosolids programs that comply with
       our Part 503 regulations and any other State requirements;



                                       -34-                         Report No. 2000-P-10
    2) encouraging adoption of best management practices by these
       organizations that support beneficial reuse and protection of overall water
       quality; and

    3) facilitating better communications with local stakeholders and addressing
       issues they are concerned about.

RESPONSE TO OIG RECOMMENDATIONS:

  The report recommends that the Assistant Administrator for Water “work with the
  regions and states to develop and implement measures to determine compliance
  with Part 503, instruct regions to maintain, or ensure that states maintain,
  Cumulative Pollutant Loading Rate [CPLR] data, and encourage delegation of the
  biosolids program.”

     Response:

        •   OECA’s response addresses issues relating to the level of compliance
            with 40 CFR Part 503.

        •   Although the regulations and associated guidance documents imply that
            the permitting authority (i.e. the appropriate EPA Regional Office or
            authorized State agency) is a repository for data on the cumulative loads
            of pollutants applied to specific land parcels since February 19, 1993, the
            regulations do not actually require CPLR data to be reported until 90
            percent of the maximum cumulative limit of any one pollutant has been
            reached. It should be noted that most of the biosolids that are land
            applied are of such quality that CPLR tracking is not necessary.

        •   OW’s Office of Wastewater Management (OWM) has supported the
            development of the BDMS which will enable wastewater utilities, States,
            Regions, and others to store and monitor biosolids data including site-
            specific CPLR information.

        •   OW does not expect to devote significant effort to encouraging the
            Regions to delegate the biosolids program to the States. At the present
            time, there is little incentive for the States to seek delegation, and some
            States see impediments to delegation, e.g. the effect of State self-audit
            statutes, and issues related to the Endangered Species Act and the
            National Environmental Policy Act. At the present time, we feel that OW’s
            efforts would be better spent in improving communications between the
            States and Regions, documenting State efforts devoted to the regulation
            and oversight of biosolids use and disposal practices, and working with


                                         -35-                         Report No. 2000-P-10
           State and local agencies to increase the use of environmental
           management systems.

The report recommends that the Assistant Administrator for Enforcement and
Compliance Assurance: (1) “[i]mplement GAO’s 1990 recommendation to establish
an effective enforcement program” and (2) “[w]ork with the septage industry and
state and local governments so that septage haulers who violate Part 503 receive
appropriate penalties, and publicize this information for its deterrent effect.”

   Response:

       •   Please see OECA’s specific comments in Attachment No. 1.

The report discusses the annual performance measure related to beneficial use of
biosolids established pursuant to the Government Performance and Results Act
(GPRA), points out a number of deficiencies in the manner in which the goal was
established, and states that it “does not provide a meaningful picture of the national
state of biosolids use and disposal practices, and is not a useful decision making
tool for the biosolids program.” The report suggests that there might be better
measures available to address “reductions in point source pollution and more
accurately characterize possible nonpoint source pollution from non compliance
with Part 503 management practices.” The report concludes:

   If EPA continues to measure the current goal of beneficial use of
   biosolids, we recommend that the Assistant Administrator for Water:
   define “beneficial reuse,” provide guidance to the regions concerning
   what data should be collected and where collected data should reside,
   establish procedures to verify collected data, allocate resources
   necessary to determine progress toward the established goal. [and]

   If OW elects to review and redefine goals for the biosolids program, we
   recommend that the Assistant Administrator for Water: select annual
   performance goals and indicators for the biosolids program that reflect the
   goal of reducing point source or nonpoint source pollution, such as
   percentage of EQ sludge, adoption of best management practices, or the
   quantity of metals removed from wastewater or compliance rates with Part
   503 management practices [and] identify the actions and investments
   needed to accomplish the revised goals.
   Response:

       •   A discussion as to why and how this measure was established under Goal
           2 rather than Goal 4 which addresses pollution prevention is included in
           Attachment No. 2.


                                       -36-                          Report No. 2000-P-10
             •   For at least the next year or two, OW will continue to use beneficial use of
                 biosolids as a goal and measure under GPRA. We will initiate
                 discussions with our Regional offices and States to see if there is a better
                 measure for assessing the success of our biosolids program. The first
                 opportunity for doing this will be the next annual meeting for Regional and
                 State biosolids coordinators scheduled for June 26-29, 2000, in
                 Cincinnati. I hope you can appreciate that there is considerable advance
                 work needed to develop and implement a new performance measure. In
                 the interim, we will provide additional guidance to the Regions and States
                 as to what we mean by beneficial use in this context and on how data is to
                 be collected, assessed, and reported to Headquarters. We have already
                 drafted such guidance and plan to include it in the next annual program
                 guidance which will be circulated for comment soon with the final version
                 to follow in April 2000.

             •   OWM has devoted considerable resources to development of the BDMS
                 and is encouraging Regions, States and others to use that system for
                 collection, storage, and analysis of biosolids information. We have also
                 encouraged OECA to incorporate BDMS into the Modernized Permits
                 Compliance System. Many States and Regions have begun to use
                 BDMS, and some Regions are encouraging POTWs and others to use
                 the system as the means of providing the Part 503 annual report for 1999
                 that is due in February 2000 or are providing a reporting form that will
                 make Regional entry of data into BDMS much easier. OWM will continue
                 to support BDMS to the extent resources allow. If States, Regions, and
                 wastewater utilities use the BDMS or a compatible system, we will be in a
                 position to determine current use and disposal practices, the amount of
                 biosolids being beneficially used, biosolids quality (e.g. the amount
                 meeting Table 3 of the regulations), and the status of compliance with the
                 Part 503 rule.

             •   OW’s budget does not specifically identify resources for biosolids.
                 However, the Office of Science and Technology continues its regulation
                 development activities, and OWM has been able to, and will continue to,
                 support a biosolids program with approximately two FTEs, with minimal
                 discretionary contract and grant funds, and with Congressional earmark
                 funds. John Walker of OWM leads a cross-office Biosolids Program
                 Implementation Team (BPIT) to coordinate and facilitate the Agency’s
                 limited biosolids resources.

          I have also included, in Attachment 2, some suggested editorial changes to the
report.


                                              -37-                         Report No. 2000-P-10
        Thank you again for the opportunity to comment on the draft report. Should you
wish to discuss them with me, please give me a call. Your staff may also wish to talk
directly with Michael B. Cook, Director, Office of Wastewater Management (260-5850),
or John Walker of the Municipal Technology Branch, Municipal Support Division
(260-7283). For any questions related to our work with the NBP on its EMS program or
other EMS related issues, please contact Jim Horne (260-5802).

Attachments

cc:       Sylvia Lowrance, OECA                 Greg Marion, ARMSS/OECA
      Eric Shaeffer, ORE/OECA                   Chuck Sutfin, PD/OWM/OW
      Michael Stahl, OC/OECA                    Geoff Grubbs, OW/OST
      Leo D’Amico, OCEFT/OECA                   Alan Rubin, OW/OST
      Sue Priftis, OC/OECA                      Jim Horne, OWM
      Beth Cavalier, ORE/OECA                   Regional Administrators, Regions I-X
      Kevin Guarino, OCEFT/OECA                 Biosolids Coordinators, Regions 1-X




                                         -38-                         Report No. 2000-P-10
                                                                              Attachment No. 1




MEMORANDUM

SUBJECT:      OECA’s Response to Draft IG Report on Biosolids

FROM:      Sylvia K. Lowrance /s/
           Principle Deputy Assistant Administrator,
           Office of Enforcement and Compliance Assurance

TO:        Jonathan C. Fox
           Assistant Administrator,
           Office of Water

    Attached you will find OECA’s response to the Biosolids Management and Enforcement
Draft Audit Report (No. 99P-000301.) The report was reviewed by OECA staff and managers in
our civil and criminal enforcement programs, and by our compliance assurance program. We look
forward to receiving a copy of the consolidated Agency response to this audit report.

    If you have any questions about OECA’s response or if you need additional information,
please contact Greg Marion, OECA’s IG/GAO Liaison. Greg can be reached at 564-2446.

Attachments

cc: Eric Schaeffer, Director, ORE
    Michael Stahl, Acting Director, OC
    Leo D’Amico, Acting Director, OCEFT
    Sue Priftis, OC
    Beth Cavalier, ORE
    Kevin Guarino, OCEFT
    Greg Marion, ARMSS




                                             -39-                            Report No. 2000-P-10
                            OECA Response to Draft IG’s Report on Biosolids
                                 Draft Audit Report No. 99P-000301

1. OECA Comments on Draft Findings

     The draft IG’s report characterizes OECA’s position on biosolids enforcement resources as follows:
“OECA Headquarters does not commit any resources to biosolids enforcement, a decision referred to as
‘disinvestment.’ OECA explains that there are more regulated communities than can be adequately
overseen with its available resources. Rather than spread its limited resources so broadly that only token
efforts can be made in several areas, OECA decided to concentrate its efforts in a few areas other than
biosolids, where it feels it can make a large impact. OECA considers biosolids to be relatively low risk,
and notes that biosolids are not mentioned in OW’s Clean Water Action Plan and are not a Memoranda of
Agreement (MOA) priority.” Draft IG report at page 14.

     Although the cited quotation is basically correct, OECA wishes to amplify the first quoted sentence
above (“OECA Headquarters does not commit any resources to biosolids enforcement, a decision referred
to as ‘disinvestment.’”). It is true that no OECA resources are specifically identified for biosolids
enforcement. Given the current budget climate and the reductions that have been sustained in the
enforcement program, OECA chooses to devote resources to those areas that represent a higher risk. The
attached charts demonstrate the vast size of the regulated universe as compared to the available resources.

     However, OECA certainly recognizes that biosolids are part of the core NPDES program and has
responded to limited requests for Headquarters assistance from the Regions on biosolids issues and cases
(often administrative). The Regions and states may focus on biosolids as part of the base program as they
determine is appropriate. OECA has left biosolids enforcement to be determined on a Region by Region
basis without an OECA national strategy for the reasons correctly stated above by the draft IG’s report.

     The disposal and use of biosolids is subject to permits issued under the National Pollution Discharge
Elimination System, 33 U.S.C.§1342. Regulations pertaining to biosolids disposal are found at 40 CFR
part 503. Biosolids disposal cases are enforced criminally pursuant to 33 U.S.C. §1319(c)(1)(A) and
(c)(2)(A). The criminal provisions of the Federal Water Pollution Control Act provide criminal sanctions
for the negligent or knowing violation of 33 U.S.C. §1345, relating to the disposal or use of sewage sludge
and 33 U.S.C. §1342, relating to violations of National Discharge Elimination System permits.

    OECA’s Office of Criminal Enforcement, Forensic and Training, Criminal Investigation Division, will
review, on a case by case basis, any information relating to violations of laws criminally enforced by the
Agency. All allegations of violations of biosolids disposal regulations, as well as any other criminal
provision enforced by the Agency will be evaluated using the OCEFT policy memorandum entitled “The
Exercise of Investigative Discretion.” The prior regulatory history of a potential subject will also be
considered. Another factor in determining OCEFT’s involvement in a biosolids disposal case would be the
potential for violations of the Resource Conservation and Recovery Act in situations where the chemical
composition of a biosolid would meet the regulatory definition of a RCRA hazardous waste.

    All referrals by the Office of Water and the EPA Regional Offices, relating to alleged violations of the
program, will be reviewed by our Area Offices for potential criminal enforcement.

2. OECA Response to Draft IG Recommendations

                                                    -40-                                Report No. 2000-P-10
   The draft IG’s report (at page 16) recommends that OECA (1) publish national criteria for biosolids
significant non-compliance, (2) publish national biosolids criteria for timely and appropriate
enforcement, (3) provide effective oversight of EPA Regional and State biosolids enforcement efforts,
and (4) “work with the septage industry and state and local governments so that septage haulers who
violate Part 503 receive appropriate penalties, and publicize this information for its deterrent effect.”

     OECA does not dispute the value of the above recommendations. However, OECA feels
compelled to allocate resources on the basis of relative risk, which drives the establishment of
enforcement priorities under the Clean Water Act. As explained during the IG interviews with OECA
personnel, enforcement priorities under the Clean Water Act are set out in the FY 2000/2001 OECA
Memorandum of Agreement (MOA) Guidance (MOA Guidance) and in the Clean Water Action Plan.
The priorities are developed on the basis of risk in consultation with the Regions. The current Clean
Water Act enforcement priorities in the MOA Guidance relate to “wet weather areas: the Combined
Sewer Overflow (CSO) Policy, the Sanitary Sewer Overflow (SSO) Enforcement Management System,
the National Concentrated Animal Feeding Operations (CAFOs) Sector Strategy (including the CAFO
Implementation Plan), and Storm Water regulations.” These Clean Water Act enforcement priorities
address areas posing greater environmental risk than biosolids.

    The draft IG report itself acknowledges that resources are based on priorities. The executive
summary of the draft report states that “We recognize that there may be higher priority needs for OW
and OECA resources.” OECA has no additional staff resources for FY 2000. In fact, the draft report
acknowledges appreciation of “the resource constraints that all parties face.” Draft IG report at page
16. To do the biosolids enforcement work recommended by the draft IG report would mean diverting
staff from the Clean Water Act enforcement priorities described above. Because the priorities are, in
the opinion of OECA, addressing areas of higher risk than biosolids, OECA does not respectfully
believe it should divert Clean Water Act enforcement resources away from high risk priority areas to
biosolids.

    However, OECA will continue to respond to limited Regional requests for assistance in biosolids
enforcement as part of the core program. In addition, OECA’s Office of Compliance is currently
developing detailed audit protocols for the NPDES program. These protocols will cover the biosolids
program in detail, and may be used by EPA Regional and state personnel, as well as the regulated
community to assist them in determining compliance with the biosolids regulations. OECA expects to
complete these audit protocols by spring of 2000.

    OECA’s compliance assistance center, the Local Government Environmental Assistance Network
(www.lgean.org) is a resource available to all local governments to assist them with compliance with
the biosolids regulations, as well as other regulations. OECA has made this resource available to the
Office of Water to assist them in their outreach efforts.




                                                  -41-                               Report No. 2000-P-10
-42-   Report No. 2000-P-10
-43-   Report No. 2000-P-10
                                   Attachment No. 2
                 OW’s Comments and Suggestions for Editorial Changes to
                 the OIG Report on Biosolids Management & Enforcement

1. The report needs to include an explanation as to how and why the biosolids measure was
   included under Goal 2 where it doesn’t seem to fit. We offer the following explanation for
   your consideration. When goals and measures for use under the Strategic Plan developed in
   response to the Government Performance and Results Act (GPRA) were first being
   developed, OW proposed a goal/measure related to beneficial use of biosolids because it
   would support one of OW/OWM’s significant activities, and it would serve to reinforce the
   Agency’s Policy on Municipal Sludge Management published in the Federal Register on June
   12, 1984. Since the goal/measure related to beneficial use of biosolids seemed to more
   directly support the pollution reduction objectives of Goal 4 of the Strategic Plan, it was
   originally placed under that Goal. Later on, the biosolids goal/measure was moved to Goal 2
   to avoid mingling budgets of two offices (OW & OSWER) under one goal.

2. Most Regions know what data they should collect under the 503 reporting process. Some
   provide specific guidance and or forms/formats to POTWs and others are required to report.
   For the 1999 report, due on February 19, 2000, some regions are strongly suggesting the use
   of BDMS for tracking and reporting or providing a reporting form that will make entry of
   data into BDMS much easier. BDMS has been designed to: (a) accommodate direct data
   entry by POTWs, other generators, and land appliers, (b) allow tracking of the
   quality/quantity of biosolids on a field-by-field basis, (c) allow easy analysis of the data, (d)
   permit data and reports to be submitted to the permitting agency (State or Region)
   electronically. We will continue to encourage our Regional Offices, the States, and the
   regulated community to use the BDMS and, to the extent resources allow, will support its
   upkeep and maintenance until it can be incorporated into GEMS, the successor to the present
   PCS.

3. Page i:

   1. First paragraph: First sentence should be revised as follows: Domestic s Sewage sludge is
      the solid, semi-solid, or liquid by-product generated during the treatment of wastewater
      domestic sewage at municipal wastewater treatment plants in a treatment works. The
      suggested change is more in line with the regulations. The important point is that the
      regulations apply to privately owned as well as publicly owned treatment facilities
      treating domestic sewage.

   2. First paragraph: If you accept the suggested change to the first sentence, you can delete
      second sentence.

   3. First paragraph: Revise the 6th sentence as follows: EPA encourages land application
      beneficial use of biosolids, and land application is one of the most common forms of


                                                -44-                             Report No. 2000-P-10
       beneficial use. rather than landfilling or incineration, and if applied properly, biosolids help
       condition the soil and provide a beneficial use of waste.

   4. First paragraph: Revise the 7th sentence as follows: Land application means spraying or
      spreading the material on the surface of the land, injecting it below the surface,
      or incorporating it into the soil so that the sewage sludge can either condition the
      soil or fertilize crops or vegetation grown in the soil. Soil conditioning or
      fertilization of crops/vegetation is an essential element of land application.

   5. Delete the entire 1st paragraph in the section entitled “Results in Brief.” The second
      sentence of this paragraph is particularly troublesome in that it might give the uninformed
      reader the impression that land application practices in accordance with the regulations are
      not protective of human health and the environment. The real issue, as you correctly state
      in the following paragraph and in the first paragraph on Page 5 is that EPA and State
      regulatory agencies cannot provide documentation to determine compliance levels with
      the Part 503 requirements.

4. Page ii:

   1. Paragraph that continues from previous page: Add the following sentence to the end of
      the paragraph: OECA will, however, support the biosolids efforts/initiatives of the
      Regional offices and will evaluate all referrals it receives for potential criminal
      enforcement.

5. Page 1:

   1. 1st paragraph in Background section: The first sentence or two must be modified. As
      currently written, it implies that discharge permits were first required by the 1977
      Amendments. Actually, NPDES permits were required by the 1972 Act. You might want
      to delete the first sentence entirely and explain in a footnote that the CWA refers to the
      Federal Water Pollution Control Act as amended in 1972, 1977, etc.

   2. 2nd paragraph in Background section: Revise first sentence or two to convey the correct
      idea that sewage sludge results from the treatment of domestic sewage in any treatment
      work, whether publicly or privately owned.

   3. 3rd paragraph in Background section: Total production of biosolids is approximately 7.5
      million dry metric tons/year. It is incorrect to imply that all of it originates from POTWs.
      Also, the official policy of EPA is to encourage “beneficial use,” not ”land application.”
      (See 1984 Policy Statement.)




                                                 -45-                              Report No. 2000-P-10
6. Page 2:

   1. 1st paragraph: The “definition” of land application provided is incomplete. Revise as
      follows: “. . . into the soil so that the sewage sludge can either condition the soil or
      fertilize crops or vegetation grown in the soil.”

   2. 2nd paragraph: Revise first sentence as follows: “. . . quality of the biosolids and the crops
      grown on or in the soil.”

   3. 3rd paragraph: Record-keeping requirements are not limited to POTWs as the 2nd sentence
      implies.

7. Page 5:

   1. 1st paragraph: You need to modify the paragraph slightly because POTWs are not the only
      facilities required to report to the permitting agency. Significant generators and land
      appliers must also report.

   2. 1st paragraph: Add the following sentence to the end of the paragraph: OECA will,
      however, support the biosolids efforts/initiatives of the Regional offices and will evaluate
      all referrals it receives for potential criminal enforcement.

8. Page 6:

   1. Please revise the chart to show that Region 2 reviewed 277 reports and that Region 8
      reviewed 273 reports.

9. Page 7:

   1. 2nd full paragraph: It’s true that most land appliers of sewage sludge are not required to
      submit reports to the permitting authority, but all are required to maintain records and
      have the records available virtually on demand.

10. Pages 7 & 8:

   1. We recommend you add some words to emphasize that some POTWs (e.g. lagoons and
      small package plants) do not produce sludge/biosolids on a regular basis and that there
      are facilities other than POTWs subject to the regulations.




                                               -46-                              Report No. 2000-P-10
11. Page 10:

   1. 1st paragraph: We suggest you revise the last sentence to read that septage haulers are
      required to keep records even though they may not need to submit reports to the
      permitting authority.

12. Page 15:

   1. First paragraph: You might want to note that Congress has provided another $900,000 for
      the National Biosolids Partnership in FY 2000.




                                              -47-                            Report No. 2000-P-10
                                  APPENDIX B
                                        Distribution



Office of the Inspector General

Inspector General
Assistant Inspector General for Audit
Divisional Inspectors General


EPA Headquarters Offices

Agency Followup Official (2710)
Agency Followup Coordinator (2724)
Associate Administrator for Communications, Education and Public Affairs (1701)
Associate Administrator for Congressional and Intergovernmental Relations (1301)
Associate General Counsel, Water Law Office (2355)
Audit Liaisons:
     Office of Enforcement and Compliance Assurance
     Office of Water

EPA Regional Offices

Regional Administrators
Regional Audit Liaisons
Biosolids Coordinators




                                             -48-                           Report No. 2000-P-10
